<html>
<title> - STATE SPONSORS OF TERRORISM REVIEW ENHANCEMENT ACT; NORTH KOREA STATE SPONSOR OF TERRORISM DESIGNATION ACT OF 2016; AND WOMEN, PEACE, AND SECURITY ACT OF 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


STATE SPONSORS OF TERRORISM REVIEW ENHANCEMENT ACT; NORTH KOREA STATE 
  SPONSOR OF TERRORISM DESIGNATION ACT OF 2016; AND WOMEN, PEACE, AND 
                          SECURITY ACT OF 2016

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                   H.R. 5484, H.R. 5208 and H.R. 5332

                               __________

                             JUNE 16, 2016

                               __________

                           Serial No. 114-197

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ___________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
20-456PDF                      WASHINGTON : 2016                          
                                 
                               
 _________________________________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
 E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b1a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a>  

 
 
 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 5484, State Sponsors of Terrorism Review Enhancement Act....     2
H.R. 5208, North Korea State Sponsor of Terrorism Designation Act 
  of 2016........................................................     9
  Amendment in the nature of a substitute to H.R. 5208 offered by 
    the Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................    22
H.R. 5332, Women, Peace, and Security Act of 2016................    34
  Amendment in the nature of a substitute to H.R. 5332 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    48
      Amendment to the amendment in the nature of a substitute to 
        H.R. 5332 offered by the Honorable William Keating, a 
        Representative in Congress from the Commonwealth of 
        Massachusetts............................................    61

                                APPENDIX

Markup notice....................................................    76
Markup minutes...................................................    77
Markup summary...................................................    79
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Statement from the Honorable Kristi L. Noem, a 
  Representative in Congress from the State of South Dakota......    80
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Statement from the Honorable Janice D. 
  Schakowsky, a Representative in Congress from the State of 
  Illinois.......................................................    81
  
  
 
 STATE SPONSORS OF TERRORISM REVIEW ENHANCEMENT ACT; NORTH KOREA STATE 
  SPONSOR OF TERRORISM DESIGNATION ACT OF 2016; AND WOMEN, PEACE, AND 
                          SECURITY ACT OF 2016

                              ----------                              


                        THURSDAY, JUNE 16, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC

    The committee met, pursuant to notice, at 10:50 a.m., in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order. Pursuant 
to notice, we meet today to mark up three measures.
    Without objection, all members may have 5 days to submit 
statements or extraneous material on today's business for the 
record.
    As members were notified yesterday, we intend to consider 
today's measures en bloc.
    So, without objection, the following items previously 
provided to members will be considered en bloc and are 
considered as read: H.R. 5484, the State Sponsors of Terrorism 
Review Enhancement Act; H.R. 5208, the North Korea State 
Sponsor of Terrorism Designation Act of 2016, with Poe 
amendment 279 in the nature of a substitute to H.R. 5208; and 
H.R. 5332, the Women, Peace, and Security Act of 2016, with the 
Royce amendment 123 in the nature of a substitute to H.R. 5332 
and the Keating amendment 72 to the Royce amendment.
    [The information referred to follows:]<greek-l>H.R. 
5484 deg.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Royce. And after recognizing myself and the 
ranking member, I will be pleased to recognize any member 
seeking recognition to speak once on any of these measures.
    So I will start here by thanking Mr. Ted Yoho for his work 
on H.R. 5484. This is the State Sponsors of Terrorism Review 
Enhancement Act.
    Let me share with you why I think this is important. The 
designation of a foreign government as a state sponsor of 
terrorism is one of our Government's most powerful statements. 
In addition to imposing sanctions and other restrictions, the 
designation itself earns a state pariah status internationally. 
And that is deserved, because all of these countries have 
governments who back the killing of innocents, the killing of 
innocent people, as a matter of policy.
    Yet, under current law, to delist a state sponsor, the 
administration only needs to certify that the country has 
refrained from supporting terrorism for a mere 6 months. We 
shouldn't be giving terrorist regimes a clean bill of health in 
such a short time.
    To address this, Mr. Yoho's legislation quadruples the time 
that a designated country must refrain from sponsoring 
terrorism before the President can remove that country from the 
state sponsors of terrorism list. That means from 6 months to 
24 months. And it doubles the time that Congress has to review 
and potentially overturn the President's proposed removal of a 
country from that list. In other words, it will no longer be 45 
days. We will have 90 days to review that here. That 
strengthens congressional oversight.
    And, again, I want to thank Representative Yoho for his 
leadership on this measure, which I urge all members to 
support.
    We also consider another bill on this topic, and that is 
5208, requiring the State Department to report on the 
designation of North Korea as a state sponsor of terrorism. In 
2008, North Korea's designation was rescinded following 
commitments that it made to dismantle its nuclear weapons 
program. North Korea got its delisting but kept its nuclear 
program, as evidenced by its fourth nuclear test earlier this 
year.
    Since 2008, not only has North Korea's nuclear weapons 
program advanced, but so has its support for terrorism. The Kim 
regime has reportedly continued to supply surface-to-air 
missiles and explosives to two organizations, both Hamas and 
Hezbollah. It has shelled South Korean civilians on Yeonpyeong 
Island, and it has attempted assassinations of North Korean 
dissidents that live abroad.
    This legislation requires the State Department to examine 
these actions and report to Congress on whether North Korea 
should be relisted as a state sponsor of terrorism.
    And I want to thank the bill's author, Judge Ted Poe, who 
has long pressed this issue, as well as the ranking member for 
working with our offices on the refined text the committee is 
taking up today. The flawed delisting of North Korea has also 
been of particular focus to Chairman Emeritus Ros-Lehtinen.
    And, finally, we consider H.R. 5332. This is the Women, 
Peace, and Security Act of 2016.
    In March, this committee held a hearing where we heard 
powerful testimony about the importance of including women in 
peace processes around the world. Simply put, when women are at 
the negotiating table, peace is more likely. This bill 
recognizes that it is in our national interest to advance 
women's participation in preventing and resolving global 
conflict and requires a governmentwide strategy to that effect.
    In 2011, the administration issued a National Action Plan 
on Women, Peace, and Security, and it has just published an 
update. I want to note that the bill before us does not set 
either plan into law. Rather, the bill identifies the many 
bipartisan points of consensus around this issue and sets 
specific goals, specific benchmarks, for women's participation 
along with oversight from Congress to gauge progress.
    And I want to thank Ranking Member Engel and the bill's 
sponsors, Representatives Noem and Schakowsky, for their 
bipartisan leadership. And I want to thank Representative 
Keating for his good amendment today, which further increases 
administration accountability.
    I now recognize the ranking member for his remarks.
    Mr. Engel. Mr. Chairman, thank you for convening this 
markup.
    I want to thank the members for their hard work of the 
legislation we're considering today. I intend to vote ``yes'' 
on all the bills that we have before us.
    Let me begin with Mr. Yoho's bill, the State Sponsors of 
Terrorism Review Enhancement Act. Under current law, a state 
sponsor of terrorism must end support for terrorism and be on 
good behavior for 6 months before it can be taken off the list. 
This legislation would expand that period from 6 months to 2 
years.
    I am certainly open to expanding the timeframe. And, 
frankly, I cannot foresee any scenario in the near term in 
which we would have an interest in removing the countries 
currently on the list, particularly Iran and Syria. As we all 
know, Iran is the world's leading state sponsor of terrorism, 
and the Assad regime in Syria isn't too far behind.
    But, as we move forward, we need to think about unintended 
consequences. We may face scenarios in the years ahead with 
countries that may not even be on our radar screen right now. 
We need to ensure that we are not setting up road blocks to 
potential diplomatic opportunities that aren't in America's 
national security interest.
    So I am not going to oppose this bill. I will support the 
bill. But I think we need to keep an open mind going forward. 
After all, in its current form, the administration does oppose 
this measure, and we all want to advance legislation that 
stands a chance of making it across the finish line. So I hope 
with this bill, as it goes forward, we can make sure we are 
taking the best possible approach.
    Along the same line, I will turn to the bill offered by Mr. 
Poe and Sherman, which aims to assess North Korea's bad 
behavior and determine whether they should be put back on the 
state sponsors of terrorism list. We all know the litany of the 
Kim regime's troubling actions, atrocious human rights abuses, 
assassinations, illegal nuclear program, and targeting other 
countries using conventional, clandestine, and cyber tools. The 
list goes on and on, yet the Bush administration removed North 
Korea from the state sponsors of terrorism list in 2008. It was 
part of the deal to get North Korea to abandon its nuclear 
weapons program. But before the ink was dry on the agreement, 
North Korea reneged on its commitments and returned to its 
dangerous course.
    I can't say I was surprised by this. I think we all know by 
now, it was a bad deal. And you cannot believe anything the 
North Korean regime says and does.
    In the years since, we simply haven't gotten enough of or 
the right kind of information for the administration to correct 
this mistake and relist North Korea. This bill would press the 
administration to conduct an evidence-based review on the 
information we do have on North Korea to see if we can in fact 
put them back on that list.
    I think it is worth taking a closer look at this issue, and 
that is what this measure does. I thank Mr. Poe and Mr. Sherman 
for their efforts on this.
    As reprehensible as North Korea is, I think we need to 
consider if they actually are a state sponsor of terrorism. 
They are awful in every way we can think, but I think there is 
a fine line as to whether or not they may or may not be a 
sponsor of terrorism, but I do think that this legislation 
should be passed.
    Finally, I am happy to support the Women, Peace, and 
Security Act brought forward by Representatives Schakowsky and 
Noem. Violent conflicts around the world hit women and girls 
especially hard. At the same time, women can play an outsized 
role in providing stability in communities, pushing back 
against radical ideologies and countering violent extremism. 
That is why, nearly 5 years ago, President Obama unveiled the 
National Action Plan on Women, Peace, and Security to force on 
the importance of women around the world in helping to prevent 
and resolve conflicts. This legislation would build on those 
efforts for making sure our foreign policy stays focused on 
including women in conflict negotiation, promoting the physical 
and economic security of women around the world, and working to 
break down the barriers that have prevented the full 
participation of women.
    This is really a very important issue. Representative 
Schakowsky has been driving this effort for years. I am glad we 
have such strong bipartisan support to move this bill forward.
    I would like to enter, Mr. Chairman, into the record a 
statement of support from our colleague, Jan Schakowsky of 
Illinois, on this Women, Peace and Security bill. She is one of 
the authors of the bill, and I thank for her leadership on 
these issues.
    Chairman Royce. Without objection.
    We go now to Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. I rise in support of these--what I 
consider to be--really significant pieces of legislation. And I 
would like again to congratulate our chairman and ranking 
member for their cooperation and their leadership on so many 
issues like this and making sure that our committee is able to 
actually get some things done. And I appreciate both of you, 
and I appreciate this legislation today before us.
    Let me make this pitch. Let's pass this bill, and let's 
declare Pakistan a sponsor of terrorism. That is what it comes 
down to if we really believe this. The evidence is overwhelming 
that Pakistan has been supporting terrorist elements, not just 
in Afghanistan, not just within Pakistan, but in different 
parts of the world. We also have an arrogant display by 
Pakistan of saying: Well, we don't care what you think; we are 
actually going to put Dr. Afridi in a prison just so the whole 
world will know that you can't tell us what to do, even when it 
comes to terrorism.
    As we remember, Dr. Afridi was the brave and courageous 
Pakistani doctor who helped us locate Osama bin Laden. The man 
that was involved with the massacre, in organizing the massacre 
of 10,000 Americans--excuse me, 3,000 Americans on 9/11. Let us 
remember that, as I am saying this, that it wasn't just that 
they got Dr. Afridi in jail, but we should remember where did 
Dr. Afridi find this man, find this criminal, this person, this 
terrorist leader? Probably the worst terrorist in the 20th 
century or the 21st century and they found him in the middle of 
Pakistan, right next to their school where they trained their 
military officers. And he was there for years. It <greek-l>is 
deg.strains credibility of anybody who suggests we should 
accept the idea that the Pakistani Government didn't know that 
Osama bin Laden was right there as their guest for that many 
years.
    So, with that said, that alone should put Pakistan on the 
list. But, right now, they are deeply involved in domestic 
terrorism in the slaughter of Sindhis and the slaughter of 
people in Baluchistan. What the people in Baluchistan are 
trying to apparently get a vote so they can determine their own 
destiny, which is their right. And I believe people everywhere 
should have a right to vote on what country they are going to 
be part of or whatever. In some cases, people were denied a 
vote. In other cases, they were not only denied a vote, but 
they suffered enormous murders of their people and suppression. 
And that is what is going on in Baluchistan, and that is what 
is going on with the Sindhis in Pakistan. And the Pakistani 
Government is still engaged in helping groups like the Taliban 
and others.
    There was a Taliban leader, as we know, who was recently 
tracked down and eliminated, thank God, by our military forces. 
But where was that? Where was that Taliban leader? He was in 
Pakistan, of course. And, of course, the Pakistani response to 
us killing this terrorist leader was: You shouldn't have had--
your drones shouldn't have overflown our territory.
    This is getting to be a sick game with the Pakistanis, with 
us trying to ignore the fact of how evil they have become in 
their cooperation with terrorism throughout the world.
    So I support what we are doing here. I certainly agree with 
the chairman's comments and Ranking Member Engel's comments 
about North Korea, but I want to make sure that we know that we 
are setting a standard, not just attacking North Korea here. 
Thank you very much.
    Chairman Royce. Thank you.
    Dr. Afridi should not have been jailed, and he should be 
released immediately.
    We go now to Mr. Brad Sherman from California.
    Mr. Sherman. First, I would like to say I agree with at 
least half of what the gentleman from California said about 
Pakistan and would like to meet him halfway. If we don't 
designate it a terrorist country, at least we could cut half 
their aid until we see a substantial improvement in their 
behavior, starting with, of course, Mr. Afridi and his family 
coming here to the United States.
    I want to thank the chairman for holding this markup. I 
support each of the bills, and two <greek-l>of  deg.bills deal 
with the process of designating countries that support 
terrorism. Our current law gives considerable, I think, 
excessive discretion to the executive. In general, in foreign 
policy, we have seen the growth of the imperial executive 
branch over the last 20 years, and not only is this bad for our 
constitutional values, but it hasn't led to a particularly good 
foreign policy over the last 20 years.
    So we have one bill, the State Sponsors of Terrorism Review 
Enhancement Act, which would give the Congress 90 days to look 
at removing from the list a country that has changed its 
government. There are other rules for those where there has not 
been a change of government, but we should remember that the 
primary--and I would--future legislation might establish the 
exclusive way to take a country off the terrorism list is to 
submit a bill to Congress. So 90 days may be too long. A 2-year 
period may, in some cases, not be the right one. But the best 
way to get a country off the list is to submit a bill to 
Congress, and it is Congress' obligation to act on that 
promptly. When you look at the three countries that are on--
Sudan, Syria, and Iran--none of those countries should be taken 
off without an act of Congress.
    We have another bill, H.R. 5208, dealing with North Korea, 
which Mr. Poe and I have introduced to have a process where 
North Korea might be put back on the list. They should be on 
the list. I would like to have legislation that simply puts 
them on the list. But, at this point, I think it is a step 
forward to have a process that I think should lead to that 
conclusion. And others who have spoken have detailed all the 
reasons why North Korea should be on that list today and should 
have not been taken off.
    I think we all support the Women, Peace, and Security Act, 
and I think we will all support the Education for All Act. It 
is true, as the bill states, that tens of millions of children 
are not getting an education, and that is a crisis. But keep in 
mind, in the year 2000, only 83 percent of the children 
attended school. In 2015, that figure is up to 91 percent, but 
we still need to do more.
    I think we should take that opportunity to encourage USAID 
to focus its expenditures on providing free textbooks. In sub-
Saharan Africa, where we have the greatest problem with 
children not attending school, one of the reasons is that the 
books cost $2 to $4 for the family. In many countries, kids 
can't get the books. In Cameroon, there is 1 reading book for 
every 12 students and 1 math book for every 14 students in the 
second grade.
    By providing free textbooks, we have some control over the 
content. I am not saying that the book has to meet all American 
standards, but we can at least have some influence on the 
content of the education.
    And, second, we prevent corruption. If textbooks in the 
country are free, it is going to be hard to sell them on the 
black market. It is a lot easier to steal cash than it is to 
steal textbooks and then find a way to sell them in a country 
where they are already free. So I look forward to dealing with 
the crisis that continues in children not getting an education 
and hope that it can be the United States rather than very poor 
parents who are paying for the textbooks.
    And I yield back.
    Chairman Royce. Thank you.
    Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    I was going to be brief, and I still will be brief, but 
since my colleague brought up Dr. Afridi, I would just also 
like to join in the chorus here to saying how outrageous it is 
that the true hero of the effort in finding and dealing with 
Osama bin Laden, rather than being treated as a hero, is 
rotting in a jail cell in Pakistan. It is absolutely 
outrageous.
    And we have tried. Our leaders have recommended being quiet 
about this. We are negotiating behind the scenes. I heard this 
from the Obama administration innumerable times now: We don't 
want to be too public about this. We are negotiating behind the 
scenes.
    He is still rotting in a damn jail cell, and it is 
outrageous that the hero--so I commend my colleague Mr. 
Rohrabacher for continuing to bring this up. Although, he is 
still rotting in a jail cell.
    Relative to North Korea, my colleagues have already said it 
much better than I could. There is little question that North 
Korea's antics are developing into a real threat to the United 
States and our allies around the world.
    China is the key, as it always has been, in putting 
pressure on North Korea, but they do nothing. They give us 
happy talk but, ultimately, no real pressure on North Korea. 
They like keeping us off balance. I think that is the bottom 
line there. But it is--North Korea is becoming a threat. And 
they are becoming even more of a threat when there is little 
doubt that they are transferring technology, nuclear 
technology, and others to other bad actors around the globe in 
the Middle East and elsewhere. So I commend my colleagues. I 
commend the chairman and the ranking member for working in a 
bipartisan manner to bring these bills before us, and I hope 
they all pass. I urge my colleagues to support them.
    I yield back.
    Chairman Royce. Mr. David Cicilline from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I thank you and Ranking Member Engel for holding this 
markup today. As always, I am pleased that this committee has 
come together in the spirit of bipartisanship to pass 
legislation that deals with a variety of important issues.
    In particular, I want to express my strong support for H.R. 
5332, the Women, Peace, and Security Act of 2016. I commend 
my<greek-l>any deg. colleagues, Congresswomen Noem and 
Schakowsky, for leading this bill, which highlights the 
critical role of women in the prevention, management, and 
resolution of conflicts, peace negotiations and peacebuilding, 
humanitarian response, and post-conflict relief and recovery 
efforts.
    This bill codifies and builds upon the Obama 
administration's 2011 Executive order, known as the U.S. 
National Action Plan on Women, Peace, and Security, a 
governmentwide effort to institutionalize, amplify, and 
coordinate initiatives directed at strengthening the role of 
women in peacebuilding and conflict-prevention processes.
    Women are often the most vulnerable victims during conflict 
situations, but they have also played prominent roles in the 
pursuit of peace. It is critical that we engage women around 
the world in conflict prevention and resolution and strive to 
ensure that their voices are heard. Women are key to conflict 
resolution and peacebuilding, not only because they constitute 
half the world's population but because of their roles as 
leaders of their families and communities, especially during 
times of war.
    Women are also advocates for peace as peacekeepers, relief 
workers, and mediators. The difficult task of peacebuilding 
must be done by men and women in partnership. It is critical 
that we recognize, reinforce, and promote women's leadership in 
the realm of peace and security and do everything we can to 
ensure their lives are protected, their experiences taken into 
account, and their voices heard. Deadly conflicts can be 
avoided and peace sustained when women are empowered as equal 
partners in all aspects of peacebuilding and conflict 
prevention.
    I strongly support H.R. 5332, the Women, Peace, and 
Security Act of 2016. And I urge my colleagues to support this 
essential legislation.
    Mr. Rohrabacher. Will the gentleman yield?
    Mr. Cicilline. Yes, happy to yield.
    Mr. Rohrabacher. I would like to commend you, having gone 
on a codel with you recently, and after what we suffered in 
Orlando, we need to make sure that--and those of us who have 
differences on what this means and how far you go on certain 
rights issues, you have been a spokesman to make sure that 
people overseas understand that we believe in individual rights 
and freedom for all people, whatever their sexual preference 
is. And I want to commend you for that. It raises this issue. 
And, again we don't agree on all the details about what to do, 
but we want to make sure that, especially after things like 
Orlando and this horrible thing, that we stand together as 
Americans and all these things. We have things that separate 
us, different values and choices that we make in our lives, 
but, in essence, we are Americans and stand together as a 
family. And your vocalizing that has been very good overseas, 
so thank you.
    Mr. Cicilline. I thank the gentleman for the kind words.
    And I yield back, Mr. Chairman.
    Chairman Royce. Thank you Mr. Cicilline.
    We go to Mr. Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Chairman Royce and Ranking Member 
Engel, for convening this markup today.
    We will be considering important measures to improve our 
national security. I also appreciate Congressman Dana 
Rohrabacher for his persistence for releasing Dr. Afridi, the 
hero of identifying Osama bin Laden.
    I would particularly like to thank Chairman Ted Poe of the 
Terrorism, Nonproliferation, and Trade Subcommittee for his 
vision for authoring H.R. 5208, the North Korea State Sponsor 
of Terrorism Designation Act of 2016.
    I am grateful to be one of the few Members of Congress to 
have ever visited the Hermit Kingdom with the opportunity to 
travel there in 2003 with ranking member Eliot Engel. I saw 
firsthand the struggle and oppression of its citizens which 
they have endured under the totalitarian regime. It is no 
secret that since the designation of state sponsor of terrorism 
was rescinded in 2008, numerous reports have come out of 
Pyongyang indicating that their support for terrorist groups 
has continued.
    Recently, we have also seen numerous acts of aggression, 
which further demonstrate that the Kim dictatorship is just as 
unpredictable and dangerous as ever. I am grateful Chairman 
Poe's bill ensures the State Department does its due diligence 
and strengthens congressional oversight of this important 
issue.
    I would again like to express my support for all the 
measures considered by the committee today and urge their 
passage.
    And I yield back my time.
    Chairman Royce. I think we are--Judge Ted Poe of Texas is 
the next member seeking recognition.
    Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    For 20 years, North Korea was designated as a state sponsor 
of terrorism for its repeated support for international 
terrorism and proliferation of weapons of mass destruction. 
But, in 2008, the government, our Government, took North Korea 
off the list for completely diplomatic reasons. North Korea was 
delisted because it promised to dismantle its nuclear program. 
We were conned.
    Eight years and four nuclear tests later, it is clear that 
North Korea lied, but they are still not on the list. Not only 
did they not dismantle the nuclear program, they continued to 
support international terrorism. In 2009, reports indicated 
three North Korean arm shipments were bound for terrorist 
groups like Hezbollah and Hamas. They were seized by the UAE, 
Israel, and Thailand.
    In 2014, Hamas reportedly brokered an agreement to purchase 
communications equipment and rockets from North Korea.
    And North Korea continues to proliferate weapons of mass 
destruction to some of the most dangerous criminals in the 
world. They have worked with Iran on intercontinental ballistic 
missiles and have set up a nuclear reactor in Syria.
    When I visited with Admiral Harris of the Pacific Command, 
I asked him the question, of the five countries that are 
threats to the U.S.--China, North Korea, Russia, ISIS, and 
Iran--which of those is he the most concerned about? And he 
quickly said North Korea. And so H.R. 5208 lays out a number of 
these concerning incidents and requires the State Department to 
respond to each one of them.
    I want to thank Mr. Sherman from California for his support 
and sponsorship of this. It also requires that the State 
Department to justify in writing why North Korea is not back on 
the state sponsor of terrorism list. And if they can't justify 
it, then put North Korea on the list again. It is time to call 
North Korea what they are: A state sponsor of terrorism. We 
should look at them that way, especially in light of the fact 
that they work with Iran, who is another state sponsor of 
terrorism.
    Very briefly, I do want to weigh in on Mr. Rohrabacher's 
comments about Pakistan. Pakistan has proven they can't be 
trusted as an ally. They play everybody. They support the 
Taliban in Afghanistan, but they go after the Taliban in 
Pakistan. They have imprisoned--who I think is a hero--Dr. 
Afridi. They poisoned a CIA Director. At least he thinks they 
were poisoned and he was poisoned by the military, ISI.
    And the new Taliban leader, as has been pointed out, when 
he was taken out on May 21st, where was he hiding? He was 
hiding in the same country that Osama bin Laden was hiding, 
Pakistan. And so they cannot be trusted as well. So I agree 
with Mr. Rohrabacher and Mr. Sherman that at least we ought to 
reconsider and maybe put half of Pakistan on the state sponsors 
of terrorism list.
    With that, I yield back to the chairman.
    Chairman Royce. Thank you, Mr. Poe.
    Now we go to Mr. Alan Grayson of Florida.
    Mr. Grayson. Thank you, Mr. Chairman.
    I appreciate the comments that the members have made 
regarding the specific countries that are coming under scrutiny 
regarding their status as state sponsors of terrorism.
    I want to address a completely different issue, and it is a 
procedural one. I notice that the State Sponsors of Terrorism 
Review Enhancement Act has in it, on page 6, a provision that 
allows for a joint resolution regarding the rescission of a 
country listed as a state sponsor of terrorism. In other words, 
the procedure involved contemplated here is the President 
rescinds someone on the list, and then Congress purportedly has 
the power to prevent that from happening and keep someone on 
the list. I regard that as unconstitutional, under the INS v. 
Chadha decision from 1983. There is no such thing under our 
Constitution as a legislative veto. It is a violation of the 
Presentment Clause. We went through this actually just last 
year with Senate Joint Resolution 8, where the President had to 
issue a memorandum of disapproval reminding Congress that we 
can't do that under the Constitution.
    I also want to point out that this particular bill has no 
saving clause in it. So, unfortunately, by including in this 
bill a provision of extremely doubtful constitutionality, we 
are running the risk that the whole bill ends up being for 
nothing.
    I would encourage my colleagues not to put legislative veto 
provisions like this one in bills that pass through this 
committee or are offered otherwise in the House of 
Representatives. I think that they will lead to a great deal of 
mischief down the line. And I want to remind all of our 
colleagues that we took an oath to uphold the Constitution, 
including the Presentment Clause in it.
    I yield back.
    Chairman Royce. I think Mr. Grayson has raised a point 
here.
    I would point out that, under current law, under the Arms 
Export Control Act, this is in fact the law. What we are 
talking about doing is extending the period of time from 45 
days to 90 days. But, in point in fact, this has not been yet 
overturned by a court, nor has the issue been raised by the 
State Department, nor has a court challenge been raised to this 
issue. So, arguably, under the law of the land, the current 
interpretation is that the existing statute is legal and so 
what we are talking about is getting an across-the-board 
agreement in terms of the timeframe when Congress could act 
which would be more effective, and that it would be a 90-day 
period.
    Mr. Grayson. If I may reclaim my time.
    Chairman Royce. Yes, Mr. Grayson.
    Mr. Grayson. Thank you very much, Mr. Chairman.
    This issue has come up twice now with the Supreme Court, 
both with the INS v. Chadha case and also with the line-item 
veto cases. On both occasions, the court made it clear that the 
only way that we can act is if we pass a bill or a resolution, 
as the case may be, the Senate passes the same bill or a 
resolution, and the President signs it, or we overturn his 
veto. Joint resolutions simply don't work.
    I am aware of the fact that the, under the Arms Export 
Control Act, no one has put the screws to that provision the 
way we have seen with regard to the Chadha case or with regard 
to the line-item veto case yet, but it is inevitable that it 
will happen. It will happen sooner or later. And because we 
want our bills that we pass here in the House to pass and meet 
constitutional muster, we really should be a little bit more 
circumspect about putting very aggressive provisions in our 
bills, in my opinion, that could very well lead to the 
unconstitutionality of bills and throwing out the baby with the 
bath water.
    I yield back.
    Chairman Royce. I understand the gentleman's point.
    A joint resolution is a new statute under the 
interpretation of the House and the Senate. And so, in fact, if 
a joint resolution is a new statute, then we would have 
standing. But perhaps this would all be taken up at some point 
by court challenge, but as of to date, we haven't had any 
challenge on this particular issue.
    Mr. Grayson. Reclaiming my time.
    Chairman Royce. Allowing Mr. Grayson to reclaim his time, 
and then I will go to Mr. Sherman.
    Mr. Grayson. Yes, one last time. The fact that a joint 
resolution can be deemed as being equivalent to a bill doesn't 
make it kosher, if you will, under these circumstances because 
the bill, as written, indicates that the joint resolution 
itself is enough to rescind the President's action when, in 
fact, in order to make it proper, under the Presentment Clause, 
you would need a joint resolution and the President's 
signature, which is something that still does not provide for 
and, therefore, in my opinion, is in fact unconstitutional.
    I yield.
    Chairman Royce. Yes, but this joint resolution will require 
a Presidential signature, just by way of explanation, that we 
are passing here.
    But let me go to Mr. Sherman for his point.
    Mr. Sherman. We could avoid these constitutional issues by 
just passing a bill that says: North Korea, Iran, Sudan, and 
Syria are on the list, and they can't be taken off without 
congressional approval. That would take a more robust statement 
of Congress and a willingness to override the veto of whichever 
President is trying to trivialize the role of Congress in 
foreign policy, which is to say all of them that I am familiar 
with.
    So I do think that the chairman may be right in 
distinguishing between a joint resolution and a concurrent 
resolution, but I would prefer we be passing stronger 
legislation today and avoid whatever pitfalls the gentleman 
from Florida brings up. And I want to thank him for bringing 
those to our attention.
    Chairman Royce. I would like to also--if the gentleman 
would yield.
    Mr. Sherman. Yes.
    Chairman Royce. I would also like to thank Mr. Grayson for 
raising these points, but I would conclude with the argument 
that a joint resolution is a new law, just like an H.R., in 
that it does require--in this case, it requires a Presidential 
signature, just to reiterate that point.
    Mr. Yoho of Florida has requested time.
    Mr. Yoho. Thank you, Mr. Chairman and Ranking Member Engel.
    I appreciate the bipartisan support, and I stand too with 
the release of Dr. Afridi. Currently, there are two common 
paths for removing a foreign government from the designation. 
The first option is that the President certifies that there has 
been a fundamental change in the leadership and the policies of 
the government and that the new government does not support 
terrorism. This is obviously a more difficult standard.
    The other path to a rescission from the list is that the 
President certifies that the government has not provided 
support for acts of international terrorism during the 
preceding 6 months. This is a woefully inadequate metric to be 
considered for removal from the state sponsors of terrorism 
list, more so in today's environment with so much uncertainty 
and instability in the world. This easier path has often led to 
politically motivated rescission from the Presidents on both 
sides of the aisle.
    In 2008, President Bush removed North Korea, and in 2014, 
President Obama removed Cuba. This again is something 
Republican and Democrat Presidents have used throughout the 
past. For instance, as has already been pointed out, Iraq was 
removed from the list in 1982, relisted in 1990, and removed 
again in 2004.
    My bill will make it more difficult for politically 
motivated removals and increase congressional oversight and 
scrutiny. It will increase, as you pointed out, or quadruple 
the time a designated country must refrain from sponsoring 
terrorism before a President can remove it from the sponsor 
list from 6 months to 24. This will beseech countries with bad 
habits, like sponsoring, supporting, or harboring terrorists, 
to create good habits for a longer period of time for review.
    In addition, as you pointed out, it increases congressional 
oversight by doubling the time Congress has to review the 
President's proposed removal from 45 to 90 days, and as Mr. 
Grayson pointed out, the President's authority to designate and 
remove from the designation of terror states, he is right. But 
also Congress has a role, and we are just asking to increase 
that.
    Thank you, and I yield back.
    Chairman Royce. Thank you, Mr. Yoho.
    And if no one else is seeking time, the question then 
occurs on the items considered en bloc.
    All those in favor, say aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
measures considered en bloc are agreed to.
    Without objection, the measures are favorably reported, as 
amended.
    Staff is directed to make any technical and conforming 
changes. Also, without objection, the Chair is authorized to 
seek House consideration of these measures under suspension of 
the rules.
    And that concludes our business today.
    Again, I want to thank all the members.
    I want to thank <greek-l>our  deg.Ranking Member Engel and 
everyone's contributions here and assistance with today's 
markup.
    This committee is adjourned.
    [Whereupon, at 11:32 a.m., the committee was adjourned.]

                                     
                                   

                            A P P E N D I X

                              ---------- 
                              
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
